HHS/OIG-Audit--"Review of Juvenile Justice Costs and Youth Incentive Program Costs Which the New Jersey Department of Human Services, Division of Family Development Retroactively Claimed to the Emergency Assistance Program, (A-02-99-02006)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Juvenile Justice Costs and Youth Incentive Program Costs Which the New Jersey Department of Human Services,
Division of Family Development Retroactively Claimed to the Emergency Assistance Program," (A-02-99-02006)
August 31, 2000
Complete
Text of Report is available in PDF format (1.1 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out that New Jersey retroactively claimed $5.2 million (Federal share $2.6 million) under the
Emergency Assistance (EA) program for the costs of certain juvenile justice and youth incentive programs. The retroactive
claims did not meet EA eligibility criteria related to the application for benefits and authorization of services. Subsequent
to our fieldwork New Jersey withdrew their claim based on concerns raised by our review regarding the validity of these
claims. New Jersey returned $2 million to the Federal Government on April 26, 2000, which had previously been paid to the
State by the Administration for Children and Families (ACF). New Jersey also agreed not to seek reimbursement for the remaining
$0.6 million which the ACF had deferred pending the results of our review.